Department of Homeland Security
   Office of Inspector General

            Technical Security Evaluation of
                   DHS Activities at
            Los Angeles International Airport
                      (Redacted)




       Notice: The Department of Homeland Security, Office of
       the Inspector General, has redacted this report for
       public release.




OIG-09-01                                             October 2008
                                                         Office of Inspector General
                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                    October 1, 2008

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the implementation of technical
and information security policies and procedures at DHS components located at Los
Angeles International Airport, California. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and reviews of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                            Richard L. Skinner
                                            Inspector General
Table of Contents/Abbreviations 


Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 5
 


           CBP Did Not Comply Fully With DHS Sensitive System Policies........................ 5 

           Recommendations................................................................................................. 14 

           Management Comments and OIG Analysis ......................................................... 15 


           ICE Did Not Comply Fully With DHS Sensitive System Policies....................... 16 

           Recommendations................................................................................................. 21 

           Management Comments and OIG Analysis ......................................................... 22 


           TSA Did Not Comply Fully With DHS Sensitive System Policies...................... 23 

           Recommendations................................................................................................. 29 

           Management Comments and OIG Analysis ......................................................... 29 


           USCG Did Not Comply Fully With DHS Sensitive System Policies .................. 29 

           Recommendations................................................................................................. 33 

           Management Comments and OIG Analysis ......................................................... 33 


Appendices

     Appendix A:             Purpose, Scope, and Methodology .....................................................34 

     Appendix B:             Management’s Comments to Draft Report ........................................36 

     Appendix C:             Major Contributors to This Report.....................................................52 

     Appendix D:             Report Distribution ............................................................................53 





             Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                                (Redacted)
Table of Contents/Abbreviations 


Abbreviations

   CBP                         Customs and Border Protection
   CIO                         Chief Information Officer
   DAA                         Designated Accrediting Authority
   DHS                         Department of Homeland Security
   DHS Directive 4300A         DHS Sensitive Systems Policy Directive 4300A
   DHS 4300A Handbook          DHS 4300A Sensitive Systems Handbook
   FISMA                       Federal Information Security Management Act
   FTP                         File Transfer Protocol
   FWFL                        Far West Field LAN
   HVAC                        Heating, Ventilation, and Air Conditioning
   ICE                         Immigration and Customs Enforcement
   ISA                         Interconnection Security Agreement
   ISSM                        Information Systems Security Manger
   IT                          Information Technology
   LAN                         Local Area Network
   LAX                         Los Angeles International Airport
   NOC                         Network Operation Center
   OIG                         Office of Inspector General
   SAC                         Special Agent in Charge
   SOC                         Security Operation Center
   SSP                         System Security Plan
   TA-FISMA                    Trusted Agent FISMA
   TECS                        Treasury Enforcement Communications System
   TSA                         Transportation Security Administration
   UPS                         Uninterruptible Power Supply
   USCG                        United States Coast Guard
   WLAN                        Wireless Local Area Network




       Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                          (Redacted)
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     As part of our Technical Security Evaluation Program, we
                     evaluated technical and information security policies and
                     procedures of Department of Homeland Security components at
                     Los Angeles International Airport. Customs and Border
                     Protection, Immigration and Customs Enforcement, Transportation
                     Security Administration, and the United States Coast Guard
                     operate information technology systems or have a presence at this
                     airport in support of Homeland Security operations.

                     Our evaluation focused on how these components had
                     implemented computer security operational, technical, and
                     management controls for their information technology assets at this
                     site. We performed onsite inspections of the areas where these
                     assets were located, interviewed Department of Homeland Security
                     staff, and conducted technical tests of internal controls. We also
                     reviewed applicable policies, procedures, and other relevant
                     documentation.

                     The information technology security controls implemented at this
                     site have deficiencies that, if exploited, could result in the loss of
                     confidentiality, integrity, and availability of their information
                     technology systems. Specifically, these components need to
                     improve their physical security operational controls for
                     telecommunications equipment and servers. These components
                     also could improve their technical controls by


                     Additionally, these components need to improve their management
                     controls by upgrading documentation to include information
                     technology assets at Los Angeles International Airport.




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                         (Redacted)

                                            Page 1
Background
                    We designed our Technical Security Evaluation Program to
                    provide senior Department of Homeland Security (DHS) officials
                    with timely information on whether they had properly
                    implemented DHS information technology (IT) security policies at
                    critical sites. Our program is based on DHS Sensitive Systems
                    Policy Directive 4300A (DHS Directive 4300A), which applies to
                    all DHS components. It provides direction to managers and senior
                    executives regarding the management and protection of sensitive
                    systems. DHS Directive 4300A also outlines policies relating to
                    the operational, technical, and management controls that are
                    necessary for ensuring confidentiality, integrity, availability,
                    authenticity, and non-repudiation within the DHS IT infrastructure
                    and operations. A companion document—the DHS 4300A
                    Sensitive Systems Handbook (DHS 4300A Handbook)—provides
                    detailed guidance on the implementation of these policies.

                    DHS IT security policies are organized under operational,
                    technical, and management controls. According to DHS Directive
                    4300A, these controls are defined as follows:

                             •	 Operational Controls – Focus on mechanisms
                                primarily implemented and executed by people. These
                                controls are designed to improve the security of a
                                particular system, or group of systems. These controls
                                require technical or specialized expertise and often rely
                                on management and technical controls.

                                                         **********

                             •	 Technical Controls – Focus on security controls
                                executed by IT systems. These controls provide
                                automated protection from unauthorized access or
                                misuse. They facilitate detection of security violations,
                                and support security requirements for applications and
                                data.

                                                         **********




     Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                        (Redacted)

                                           Page 2
                                    •	 Management Controls – Focus on managing both the
                                       IT security system and system risk. These controls
                                       consist of risk mitigation techniques and concerns
                                       normally addressed by management.

                           Customs and Border Protection (CBP), Immigration and Customs
                           Enforcement (ICE), Transportation Security Administration
                           (TSA), and the United States Coast Guard (USCG) each have
                           activities at Los Angeles International Airport (LAX). They rely
                           on a range of IT assets to support their respective missions. As a
                           Category X airport, LAX is classified among those airports with
                           the largest number of enplanements. 1

                           CBP’s activities at LAX include processing passengers and
                           baggage on arriving international flights. CBP staff at LAX use
                           their systems to access various applications, including the Treasury
                           Enforcement Communications System (TECS). 2

                           ICE’s Office of Investigations at the El Segundo Field Office
                           supports operations at LAX that focus on a broad array of national
                           security, financial, and smuggling violations, for example,

                               •	   Illegal arms exports,
                               •	   Financial crimes,
                               •	   Commercial fraud,
                               •	   Human trafficking,
                               •	   Narcotics smuggling,
                               •	   Child pornography/exploitation, and
                               •	   Immigration fraud.

                           Using their unique legal authorities, ICE special agents also
                           conduct investigations aimed at protecting critical infrastructure
                           industries that are vulnerable to sabotage, attack, or exploitation.

                           TSA’s activities include screening passengers and baggage on all
                           departing flights at LAX. In support of these activities, TSA has
                           operations in several buildings at LAX, and TSA staff use Digital
                           Subscriber Lines circuits to access computer systems.

1
  There are five categories of airports—X, I, II, III, and IV. Category X airports have the largest number of
enplanements and category IV airports have the smallest number.
2
  TECS is a CBP mission-critical law enforcement application designed to identify people and businesses
suspected of or involved in violation of federal law. TECS is also a communications system permitting
message transmittal among DHS law enforcement offices and other national, state, and local law
enforcement agencies.

           Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                              (Redacted)

                                                   Page 3
               USCG personnel at LAX, designated Air Station Los Angeles,
               maintain search and rescue helicopters 24 hours a day, 365 days a
               year. They are responsible for protecting the coastal area of
               Southern California from Dana Point to Morro Bay. Additionally,
               USCG helicopters conduct homeland security patrols for the Ports
               of Los Angeles, Long Beach, and Hueneme. Its responsibilities
               include the over-water approach and departure corridors for LAX
               and the Channel Islands National Parks.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 4
Results of Review
        CBP Did Not Comply Fully With DHS Sensitive System Policies
                 CBP could strengthen operational, technical, and management controls for
                 its servers, routers, and switches operating at LAX. For example, CBP
                 could improve business continuity and physical security, and ensure that

                 Additionally, CBP should take actions to ensure that its IT assets are
                 scanned on a regular basis. Further, required system documentation
                 should be updated to include CBP’s IT assets at LAX. Collectively, these
                 deficiencies could place at risk the confidentiality, integrity, and
                 availability of the data stored, transmitted, and processed by CBP at LAX.

                         Operational Controls

                         Onsite implementation of operational controls that did not conform
                         fully to DHS policies included

                         Additionally, CBP needs to improve its


                                         Communications Redundancy

                         CBP experienced a network outage that disrupted its operations for
                         more than 10 hours and affected more than 17,000 passengers on
                         August 11, 2007. 3 This outage resulted in significant delays in
                         processing arriving international passengers, causing the terminals
                         to fill with passengers waiting to be processed. Because of this
                         situation, the LAX fire marshal restricted the number of passengers
                         that CBP could stage in the waiting areas and jet ways.
                         Consequently, CBP staff at LAX were forced to keep many
                         passengers on board aircraft for hours following international
                         flights. Additionally, CBP staff were forced to reroute some
                         flights to a nearby airport. This outage was exacerbated by an old
                         IT infrastructure, which did not have network or power redundancy
                         at LAX.

                         Subsequently, CBP has taken steps to ensure communications
                         redundancy at LAX. Specifically, CBP added circuits and
                         hardware to remove a single point-of-failure deficiency that
                         previously existed. CBP also established a new

3
 Our draft report, Customs and Border Protection Did Not Manage Effectively a Network Outage at Los
Angeles International Airport, will provide further information on the outage.

          Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 5
               telecommunications closet in a second building at LAX. These
               actions ensure that CBP users at LAX will not be limited to one
               communications pathway when accessing CBP systems.

                                         Business Continuity

               CBP’s business continuity capability needs to be strengthened at
               LAX. For example,




               CBP has implemented uninterruptible power supplies (UPS)




               Further, installing UPS devices for telecommunications equipment
               is not enough to ensure that CBP workstations will be in operation
               following a power failure.




               However, CBP has taken steps to ensure that they will be able to
               process passengers during a communications or power outage that
               lasts for a long duration.




               According to the DHS 4300A Handbook:

                        “DHS must have the capability to ensure continuity of
                        essential functions under all circumstances.”




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 6
                                 Physical Security Controls

               CBP has taken steps to place its communications assets in locked
               cabinets within areas controlled by CBP. These actions will help
               secure CBP’s IT assets at LAX from damage.




               Figure 1: CBP replaced the old rack (left) with a new locking cabinet (right)

               However, CBP has not completed this conversion at all locations at
               LAX.


               According to the DHS 4300A Handbook:

                        “Controls for deterring, detecting, restricting, and
                        regulating access to sensitive areas shall be in place and
                        will be sufficient to safeguard against possible loss, theft,
                        destruction, damage, hazardous conditions, fire, malicious
                        actions, and natural disasters.”

                                 Environmental Controls

               During our September 2007 walk-through of DHS facilities, we
               noted that many of the CBP telecommunications rooms had
               temperatures exceeding 70 degrees Fahrenheit. While CBP is
               placing this equipment in cabinets that contain fans, there are no
               temperature sensors in the cabinets to automatically turn on the
               fans or to alert CBP staff if temperature exceeds 70 degrees
               Fahrenheit.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 7
               According to the DHS 4300A Handbook:

                        “Temperatures in computer storage areas should be held
                        between 60 and 70 degrees Fahrenheit.”




               Additionally, at LAX, CBP is relying on the facility’s fire
               suppression system. However, there were also fire extinguishers in
               two telecommunications rooms that either were not charged or had
               not been inspected within 12 years. Fire extinguishers that will not
               perform could cause CBP staff to waste valuable time during an
               emergency.

               Further, in several of the server and telecommunications rooms
               there was poor electrical wiring, misplaced ceiling tiles, dust, and
               storage of non-IT assets. While we are aware that construction is
               ongoing, CBP should take steps to ensure that its IT assets will not
               be accidentally damaged during this transition period.




                        Figure 2: Missing ceiling tiles and inadequate storage at LAX.

               Technical Controls

               CBP’s implementation of technical controls at LAX that did not
               conform fully to DHS




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 8
                                  Inadequate Network Monitoring




                                               Specifically, CBP has centralized
               its network monitoring activities




                                   Unsupported Operating System

               CBP is operating six refugee fingerprint processing machines at
               LAX. At least one of these machines has an unsupported operating
               system. CBP is now working with the vendor to upgrade the
               operating systems on the refugee fingerprint devices at LAX and
               four other airports.

               Operating systems that are not supported by their vendors may not
               receive updates or patches when a vulnerability or exploitation has
               been identified.

                               Inadequate Vulnerability Assessment




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 9
               According to DHS Directive 4300A:

                        “Components shall conduct vulnerability assessments
                        and/or testing to identify security vulnerabilities on IT
                        systems containing sensitive information annually or
                        whenever significant changes are made to the IT systems.
                        This should include scanning for unauthorized wireless
                        devices. Evidence that annual assessments have been
                        conducted should be included with Security Assessment
                        Reports (SAR).”

                                      Inadequate Access Control

               CBP could strengthen the access controls on its servers at LAX.




               According to the DHS 4300A Handbook,

                        “Passwords shall be at least 8 characters in length … shall
                        be changed or expire in 180 days or less.”




               Automated systems are vulnerable to fraudulent or malicious
               activity by anyone with the authority or capability to access
               information not required to perform their job-related duties.

               According to the DHS 4300A Handbook,

                        “To protect sensitive information and limit the damage that
                        can result from accident, error, or unauthorized use, the
                        principle of least privilege must be applied. The principle
                        of least privilege requires that users be granted the most
                        restrictive set of privileges (or lowest clearance) needed for
                        performance of authorized tasks—i.e., users should be able
                        to access only the system resources needed to fulfill their
                        job responsibilities.”



Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 10
                                                Vulnerable Services

                          CBP servers, routers, and switches at LAX have numerous




                                                           increase the risk that CBP
                          systems may be compromised by malicious users or external
                          attacks.

                          According to DHS Directive 4300A:

                                  “Components shall manage systems to reduce
                                  vulnerabilities through vulnerability testing, promptly
                                  installing patches, and eliminating or disabling unnecessary
                                  services, if possible.”

                          Further, CBP’s switches at LAX were not properly configured to
                          prevent an “insider” from gaining unauthorized privileges and
                          information. 4

                                                  This may allow an attacker to capture login
                          credentials and remotely take control of the router and change or
                          delete configuration files.




4
 According to the National Institute of Standards and Technology’s Threat Assessment of Malicious Code
and Human Threats (NISTIR 4939), “Insiders are legitimate users of a system. When they use that access
to circumvent security, that is known as an insider attack.”

          Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 11
                          According to DHS Directive 4300A:

                                   “Components shall conduct and document risk assessments
                                   every three years, when high impact weaknesses are
                                   identified, or whenever significant changes to the system
                                   configuration or to the operational/threat environment have
                                   been made, whichever occurs first.”

                          According to DHS 4300A Sensitive Security Handbook,
                          Attachment D –Type Accreditation:

                                   “To account for unique physical and logical variations at
                                   the site level, a description of any differences and the
                                   associated risks at each site are documented, and the site-
                                   specific documents are incorporated as attachments or
                                   appendices to the master C&A package.”

                                            Wireless Local Area Network

                          In November 2006, CBP installed a WLAN at LAX to provide
                          high-speed mobile data connectivity and wireless coverage to CBP
                          agents operating in and around LAX. However, CBP staff at LAX
                          did not test the WLAN once it was connected to the CBP network.
                          During the time of our visit at LAX, December 2007, CBP staff
                          were unable to operate this system because of technical problems.

                          According to CBP staff, CBP did not test the WLAN after it was
                          connected to the CBP network and does not know if CBP staff
                          have ever used this system. Additionally, CBP did not document
                          the WLAN in the FWFL SSP. Further, the WLAN was not
                          included in CBP’s systems inventory, DHS’ Trusted Agent FISMA
                          (TA-FISMA) reporting tool. 7

                          According to the DHS 4300A:

                                   “Component [Information Systems Security Managers]
                                   ISSMs shall ensure that a risk assessment is conducted
                                   whenever any modifications are made to sensitive IT
                                   systems, networks, or to their physical environments,
                                   interfaces, or user community. SSPs shall be updated and
                                   re-certification conducted if warranted.”


7
 DHS uses an enterprise management tool, Trusted Agent FISMA, to collect and track data related to all
Plans of Action and Milestones, including self-assessments, and certification and accreditation data.

          Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 13
               CBP management cannot be assured that IT systems and data are
               adequately secured unless the various activities leading to
               accreditation are performed and the Designated Accrediting
               Authority (DAA) has accepted in writing the risks associated with
               operating the systems.

               Miscellaneous Issue

               CBP operates 1,900 IT devices at various facilities throughout the
               country that are not regularly scanned for vulnerabilities.




                                 Further, the CBP SOC maintains a list of an
               additional 1,048 devices that it has excluded from being scanned
               for vulnerabilities. During the course of this evaluation, CBP
               started requiring vulnerability assessments
                                                                          Finally,
               according to CBP staff, they have developed a new approach to
               vulnerability assessments
                         starting in February 2008.

               These deficiencies increase the risk that CBP IT systems used at
               LAX and other locations are vulnerable                       . CBP is
               at increased risk that a device may be open to attack if it does not
               perform vulnerability assessments regularly.

      Recommendations
               We recommend that the CBP Chief Information Officer (CIO) take
               the following actions for CBP activities at LAX:

               Recommendation #1: Implement business continuity of
               operations capability for CBP facilities at LAX, including the
               installation of a backup power supply.

               Recommendation #2: Implement stronger physical security and
               environmental controls to protect CBP’s IT assets from possible
               loss, theft, destruction, accidental damage, hazardous conditions,
               fire, malicious actions, and natural disasters.

               Recommendation #3: Use a connection protocol that employs
               secure authentication.

Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 14
               Recommendation #4: Apply the necessary operating system
               upgrades.

               Recommendation #5: Close all unnecessary ports from the
               servers, routers, and switches.

               Recommendation #6: Update the FWFL SSP and perform risk
               assessments whenever there are significant changes to the system.

               Recommendation #7: Regularly perform vulnerability
               assessments on IT systems containing sensitive information, as
               required by DHS Directive 4300A.

      Management Comments and OIG Analysis
               We obtained written comments on a draft of this report from the
               DHS Chief Information Officer. We have included a copy of the
               comments in their entirety at Appendix B.

               In the comments, CBP concurred with recommendations one, two,
               and four through seven. These recommendations will be
               considered resolved but open pending verification of all planned
               actions.

               CBP did not concur with recommendation three.




               We maintain that CBP should comply with DHS 4300A and use a
               secure communications protocol.



Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 15
           ICE Did Not Comply Fully With DHS Sensitive System Policies
                   ICE could strengthen operational, technical, and management policies for
                   the server, router, and switches at the El Segundo Field Office. 8 For
                   example, ICE could enhance physical security of its server room,

                                                  Additionally, required system documentation
                   should be updated to include ICE’s IT assets at the El Segundo Field
                   Office. Collectively, these deficiencies could place at risk the
                   confidentiality, integrity, and availability of the data stored, transmitted,
                   and processed by ICE at El Segundo.

                            Operational Controls

                            Onsite implementation of operational controls that did not conform
                            fully to DHS policies included physical security and environmental
                            controls. Specifically, ICE could better protect its IT assets by
                            restricting access to ICE’s server room or by placing the IT assets
                            in a locked cabinet. Additionally, ICE IT assets are at risk of
                            damage or malfunctioning because of the absence of an adequate
                            HVAC system in its server room. These environmental and
                            physical security controls deficiencies place the IT assets at the El
                            Segundo Field Office at increased risk from unauthorized access
                            and damage.

                                     Physical Security and Environmental Controls

                            The ICE suite at El Segundo was not properly secure to prevent
                            unauthorized access.




8
    The El Segundo Field Office of Investigations supports ICE operations at LAX.

             Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                                (Redacted)

                                                   Page 16
               ICE also needs better physical security controls to limit access to
               its server room, which is located next to the main entrance to ICE
               office space. However, the server room door is always left open
               because the room does not have an adequate HVAC system. For
               example, the server room temperature was 76.6 degrees Fahrenheit
               at the time of our visit. Additionally, anyone entering the server
               room would have access to ICE back-up tapes, server, router, and
               switches because they are not stored in a locked cabinet. Figure 4
               illustrates how the server room is not restricted, and the door is left
               open because of the absence of an HVAC system. Figure 5 shows
               the ICE IT assets that are not in a locked cabinet.




                                 Figure 4: ICE server room with open door




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 17
                             Figure 5: ICE server not secured in a locked cabinet

               According to the DHS 4300A Handbook:

                        “To protect sensitive information and limit the damage that
                        can result from accident, error, or unauthorized use, the
                        principle of least privilege must be applied. The principle
                        of least privilege requires that users be granted the most
                        restrictive set of privileges (or lowest clearance) needed for
                        performance of authorized tasks—i.e., users should be able
                        to access only the system resources needed to fulfill their
                        job responsibilities.”

                                                  *********

                        “Controls for deterring, detecting, restricting, and
                        regulating access to sensitive areas shall be in place and
                        will be sufficient to safeguard against possible loss, theft,
                        destruction, damage, hazardous conditions, fire, malicious
                        actions, and natural disasters.”

                                                  *********

                        “Temperatures in computer storage areas should be held
                        between 60 and 70 degrees Fahrenheit.”

               Technical Controls

               ICE’s implementation of technical controls that did not conform
               fully to DHS policies includes operating a server that was running
               an unsupported operating system. Additionally, ICE’s server,

Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 18
               router, and switches were not properly configured to prevent an
               insider from gaining unauthorized privilege and information.
               These deficiencies increase the risk that ICE IT systems used at El
               Segundo Field Office are vulnerable to internal attacks.

                                   Unsupported Operating System

               An unsupported operating system was running on ICE’s server at
               the El Segundo Field Office.

                                                        Operating systems that are
               not supported by their vendors may not receive updates or patches
               when a vulnerability or exploitation has been identified.

                                             Access Controls

               ICE could strengthen its access controls at the El Segundo Field
               Office. Specifically, users had administrative access to multiple
               files and directories. Additionally, shared administrative login
               accounts were in place, allowing multiple people to use the same
               account for system access.

               This configuration increases the risk of loss or theft of ICE
               mission-sensitive data. For example, unauthorized personnel may
               have the ability to write, alter, or delete data that reside on shared
               resources.

               According to the DHS 4300A Handbook:

                        “To protect sensitive information and limit the damage that
                        can result from accident, error, or unauthorized use, the
                        principle of least privilege must be applied. The principle
                        of least privilege requires that users be granted the most
                        restrictive set of privileges (or lowest clearance) needed for
                        performance of authorized tasks—i.e., users should be able
                        to access only the system resources needed to fulfill their
                        job responsibilities.”

                                         Vulnerable Services




                                                                      An attacker could

Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 19
               potentially exploit this vulnerability to gain a list of usernames and
               other sensitive information.

               Further, ICE’s switches at El Segundo were not properly
               configured to prevent an insider from gaining unauthorized
               privileges and information.

                                                This may allow an attacker to
               capture login credentials, remotely take control of the devices, and
               change or delete configuration files.

               According to DHS Directive 4300A:

                        “Telnet shall not be used to connect to any DHS computer.
                        A connection protocol such as Secure Shell (SSH) that
                        employs secure authentication (two factor, encrypted, key
                        exchange, etc.) and is approved by the Component shall be
                        used instead.”

               Management Controls

               ICE’s implementation of management controls at El Segundo did
               not conform fully to DHS policies. For example, ICE did not
               provide a system security plan that included the IT assets located at
               the El Segundo Field Office. Additionally, ICE’s server and
               telecommunications equipment uses the CBP backbone for
               connectivity. However, ICE did not have an interconnection
               security agreement (ISA) between ICE and CBP for use of this
               system connectivity. These management controls deficiencies
               increase the risk to ICE’s IT investments, systems, and data from
               new threats and vulnerabilities for which safeguards have not been
               implemented.

               According to the DHS 4300A:

                        “Component [Information Systems Security Managers]
                        ISSMs shall ensure that a risk assessment is conducted
                        whenever any modifications are made to sensitive IT
                        systems, networks, or to their physical environments,
                        interfaces, or user community. SSPs shall be updated and
                        re-certification conducted if warranted.”




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 20
               According to the DHS 4300A Handbook:

                        “Components shall document interconnections with other
                        external networks with an Interconnection Security
                        Agreement (ISA).”

                                                    **********

                        “Interconnections between DHS Components shall require
                        an ISA when there is a difference in the security
                        categorizations for confidentiality, integrity, and
                        availability for the two networks. ISAs shall be signed by
                        both DAAs or by the official designated by the DAA to
                        have signatory authority.”

      Recommendations
               We recommend that the ICE CIO take the following actions for
               ICE activities at LAX:

               Recommendation #8: Implement stronger physical security to
               protect ICE’s IT assets from possible loss, theft, destruction,
               accidental damage, hazardous conditions, fire, malicious actions,
               and natural disasters.

               Recommendation #9: Provide an adequate HVAC system for the
               server room or obtain a waiver from the DAA.

               Recommendation #10: Use a connection protocol that employs
               secure authentication.

               Recommendation #11: Apply the necessary operating system
               upgrades to the server.

               Recommendation #12: Eliminate or disable unnecessary ports
               from the server and router.

               Recommendation #13: Establish and maintain the required
               interconnection security agreements.

               Recommendation #14: Include the IT assets at the El Segundo
               Field Office in the system security plan for the Special Agent in
               Charge, West Region.



Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 21
      Management Comments and OIG Analysis
               In the comments, ICE concurred with recommendations 8 through
               12. These recommendations will be considered resolved but open
               pending verification of all planned actions. ICE did not concur
               with recommendations 13 and 14.

               According to ICE, the deficiency associated with recommendation
               13 is not applicable as both systems would have an aggregate
               security categorization of ‘high.’




               Additionally, according to ICE, the deficiency associated with
               recommendation

                            However, according to DHS 4300A, Attachment D,
               Type Accreditation:

                        “The documentation contains two critical types of
                        information:
                            o	 Site-specific details (e.g., deviations to
                               functionality, configurations, and physical controls)
                            o	 Site-specific risk analysis (e.g., additional risks that
                               are perpetrated by the deviations at the site)”




                                                We maintain that ICE should
               comply with DHS 4300A and include the El Segundo Field Office
               in the appropriate system security plan.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 22
TSA Did Not Comply Fully With DHS Sensitive System Policies
       TSA could strengthen operational, technical, and management controls for
       its servers, router, and switches operating at LAX. For example, TSA
       could remove excess storage from its server room, implement fire
       suppression, and ensure that the most recent software security patches are
       installed on its server, router, and switches. Additionally, not all TSA IT
       resources at LAX are included in the TSA system inventory. Collectively,
       these deficiencies could place at risk the confidentiality, integrity, and
       availability of the data stored, transmitted, and processed by TSA at LAX.

                Operational Controls

                Onsite implementation of operational controls that did not conform
                fully to DHS policies included excess storage near computer
                equipment and inadequate environmental controls. Specifically,
                TSA could better protect its IT assets by ensuring that the
                immediate areas around the server and communication equipment
                are not used for general storage.

                                             Physical Security

                TSA administrative functions for LAX operations are performed in
                an offsite facility where TSA has several rooms with IT
                equipment. Although, these rooms are behind several locked
                doors, TSA needs to improve its physical security. For example,
                the server room at this location was being used to store new
                equipment as well as old equipment prior to disposal. There were
                also two unbraced shelves that could hinder access to the TSA
                servers, router, and switches following an earthquake. Figure 6
                illustrates the condition of the TSA server room.

                Additionally, the TSA telecommunications room in the logistics
                department contains a switch and a server that were not in a locked
                cabinet. This room was also used to store some non-IT related
                items. Further, TSA has a switch in another room that also was not
                in a locked cabinet.

                The examples mentioned above increase the risk of accidental loss
                of power or damage to IT resources supporting TSA operations at
                LAX.




 Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                    (Redacted)

                                       Page 23
               According to the DHS 4300A Handbook,

                        “Controls for deterring, detecting, restricting, and
                        regulating access to sensitive areas shall be in place and
                        will be sufficient to safeguard against possible loss, theft,
                        destruction, damage, hazardous conditions, fire, malicious
                        actions, and natural disasters.”




                                 Figure 6: TSA server room used for storage

                                       Environmental Controls

               TSA also could improve environmental controls for its IT assets.
               For example, the temperature was 76.7 degrees Fahrenheit in the
               telecommunications room in the logistics department. Further,
               TSA was using a portable fan to cool down the switch mounted on
               the wall and the stand-alone server underneath the table. Figure 7
               illustrates the condition of the TSA telecommunications room at
               LAX.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 24
                           Figure 7: Portable fan used to cool switch and server area

               TSA’s communications equipment was also at risk of failure
               because of the absence of temperature or humidity sensors in the
               communications rooms. The absence of environmental sensors
               and proper HVAC for IT equipment increases the risk that TSA’s
               IT assets may malfunction.

               According to the DHS 4300A Handbook,

                        “The condition of the air is important to prevent damage to
                        IT equipment.”

               Additionally, TSA did not have a fire suppression system in place
               at LAX. Specifically, no water sprinklers or fire extinguishers
               were at the server room or telecommunication closets. The
               absence of an adequate fire suppression system places TSA’s IT
               assets at risk of possible loss, destruction, damage, hazardous
               conditions, fire, malicious actions, and natural disasters. As a
               compensating control, TSA has already deployed fire extinguishers
               to resolve this deficiency.

               According to the DHS 4300A Handbook:

                        “When a centralized fire suppression system is not
                        available, fire extinguishers should be readily available.”




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 25
               Technical Controls

               TSA’s implementation of technical controls at LAX that did not
               conform fully to DHS policies include inadequate access controls,
               insecure communications protocols, and open ports with known
               vulnerabilities. These deficiencies increase the risk that TSA IT
               systems used at LAX are vulnerable to internal attacks.

                                             Access Controls

               Configuration management for the TSA server needs to be
               strengthened. Specifically, the Lightweight Directory Access
               Protocol is configured to allow anonymous access to the TSA
               server. As a result, an unauthorized user or a hacker could log in
               to the system without proper credentials.
               Additionally, the Windows built-in user group “EVERYONE” was
               configured to allow full control and access to shared data. This
               may allow an unauthenticated user to upload malicious code onto a
               shared resource.

               The purpose of access controls is to protect against the
               unauthorized disclosure, modification, or destruction of data
               residing in these systems, as well as the applications themselves.
               Automated systems are vulnerable to fraudulent or malicious
               activity by anyone with the authority or capability to access
               information not required to perform their duties.

               According to the DHS 4300A Handbook:

                        “To protect sensitive information and limit the damage that
                        can result from accident, error, or unauthorized use, the
                        principle of least privilege must be applied. The principle
                        of least privilege requires that users be granted the most
                        restrictive set of privileges (or lowest clearance) needed for
                        performance of authorized tasks—i.e., users should be able
                        to access only the system resources needed to fulfill their
                        job responsibilities.”

                                Insecure Communications Protocols

               TSA’s switches at LAX were not properly configured to prevent an
               insider from gaining unauthorized privileges and information. For
               example, telnet was being used on a TSA switch at LAX.
               However, telnet does not encrypt login and password credentials.
               This may allow an attacker to capture login credentials and

Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 26
               remotely take control of the router and change or delete
               configuration files.

               Additionally, the File Transfer Protocol (FTP) port 21 was active,
               leaving the device vulnerable to unauthorized access. FTP is not
               permitted on DHS systems due to the potential risk when used for
               non-administrative purposes. For instance, just like telnet, FTP
               transmits login and password credentials in clear text.

               According to DHS Directive 4300A:

                        “Telnet shall not be used to connect to any DHS computer.
                        A connection protocol such as Secure Shell (SSH) that
                        employs secure authentication (two factor, encrypted, key
                        exchange, etc.) and is approved by the Component shall be
                        used instead.”

                                                ************

                        “File Transfer Protocol (FTP) shall not be used to connect
                        to or from any DHS computer. A connection protocol that
                        employs secure authentication (two factor, encrypted, key
                        exchange, etc.) and is approved by the Component shall be
                        used instead.”

                                                Vulnerable Services

               TSA’s servers, router, and switches at LAX have numerous open
               ports and services on its system that may not be necessary. For
               example, the following services with known vulnerabilities were
               running:

                        •	 The server was configured to allow Domain Name
                           System zone transfers to be performed. This
                           potentially poses a security risk of denial of service
                           attacks.
                        •	 Web Server was running on a nonstandard port.
                        •	 The version of Internet Information Services running
                           on the system is vulnerable to denial of service attacks.

               Additionally, the Null session was configured to allow a user to
               connect to the system without authentication. An attacker could
               potentially exploit the null session to gain a list of usernames and
               other potentially sensitive information. Unnecessary open ports


Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 27
               and services increase the risk that TSA systems may be
               compromised by malicious users or external attacks.

               According to DHS Directive 4300A:

                        “Components shall manage systems to reduce
                        vulnerabilities through vulnerability testing, promptly
                        installing patches, and eliminating or disabling unnecessary
                        services, if possible.”

               Management Controls

               TSA’s implementation of management controls at LAX did not
               conform fully to DHS policies. Specifically, not all TSA IT
               resources at LAX are accounted for in its system inventory. For
               example, the logistics server and database are not included in the
               TSA system inventory or the TSA certification and accreditation
               process. TSA management cannot be assured that IT systems and
               data are adequately secured unless the various activities leading to
               accreditation are performed and the DAA has accepted in writing
               the risks associated with operating the systems.

               These management controls deficiencies increase the risk to TSA’s
               IT investments, systems, and data from new threats and
               vulnerabilities for which safeguards have not been implemented.

               According to DHS 4300A Handbook:

                        “The initial Risk Assessment is updated and revised and
                        becomes the final Risk Assessment as part of the overall
                        accreditation process after the controls are implemented
                        and tested and the results/corrective actions are
                        implemented. Through the development of the final Risk
                        Assessment, the definition of the program residual risk can
                        be determined for the DAA’s acceptance during
                        accreditation.”




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 28
       Recommendations
                We recommend that the TSA CIO take the following actions for
                TSA activities at LAX:

                Recommendation #15: Improve its physical and environmental
                controls to protect TSA’s IT assets from possible accidental
                damage, hazardous conditions, fire, malicious actions, and natural
                disasters.

                Recommendation #16: Use a connection protocol that employs
                secure authentication.

                Recommendation #17: Eliminate or disable unnecessary ports
                from the servers, router, and switches.

                Recommendation #18: Ensure that all IT systems are included in
                TSA’s inventory.

       Management Comments and OIG Analysis
                In the comments, TSA concurred with recommendations 15
                through 18. These recommendations will be considered resolved
                but open pending verification of all planned actions.

USCG Did Not Comply Fully With DHS Sensitive System
Policies
       USCG could strengthen operational and technical controls for its server,
       router, and switches operating at LAX. For example, USCG back-up
       tapes should be stored in an off-site facility. Additionally, USCG could
       strengthen access controls and ensure that only necessary ports are open
       on its server, router, and switches.
                                                               Collectively, these
       deficiencies could place at risk the confidentiality, integrity, and
       availability of the data stored, transmitted, and processed by USCG at
       LAX.

                Operational Controls

                Onsite implementation of operational controls that did not conform
                fully to DHS policies included USCG IT assets that were not in a
                locked cabinet. Further, USCG needs to better safeguard its
                sensitive data stored on back-up tapes. Unauthorized personnel

 Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                    (Redacted)

                                       Page 29
               may have access to USCG IT assets and sensitive data stored in the
               back-up tapes. Figure 8 below illustrates USCG’s open-rack pack
               with its back-up tapes stored in the USCG server room.


                                                   To ensure the availability and
               integrity of USCG data, back-up tapes should be stored in an off-
               site facility accessible by authorized personnel only.




               According to the DHS 4300A Handbook:

                        “Components shall ensure backup media are stored off site
                        in accordance with their business continuity and IT
                        Contingency plans.”

               Technical Controls

               USCG’s implementation of technical controls at LAX that did not
               conform fully to DHS policies include access control and password
               management requirements.

                                              These deficiencies increase the
               risk that USCG IT systems used at LAX are vulnerable to internal
               attacks.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 30
                                             Access Controls




               Excess privilege given to users can put USCG data at risk by
               allowing insiders and others the opportunity to penetrate a system.
               This could result in the loss, theft, or destruction of USCG data.

               Additionally, USCG could strengthen password policies on its
               LAX systems.




               According to the DHS 4300A Handbook:

                        “To protect sensitive information and limit the damage that
                        can result from accident, error, or unauthorized use, the
                        principle of least privilege must be applied. The principle
                        of least privilege requires that users be granted the most
                        restrictive set of privileges (or lowest clearance) needed for
                        performance of authorized tasks—i.e., users should be able
                        to access only the system resources needed to fulfill their
                        job responsibilities.”

                                             System Patches

               According to our technical scans,
                                                                      USCG data
               may be compromised if patches are not installed in a timely
               fashion.




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 31
                                          Vulnerable Services




               Unnecessary open ports and services increase the risk that USCG’s
               systems at LAX may be compromised by malicious users or
               external attacks.

               According to DHS Directive 4300A:

                        “Components shall manage systems to reduce 

                        vulnerabilities through vulnerability testing, promptly 

                        installing patches, and eliminating or disabling unnecessary 

                        services, if possible.” 


                            Insecure Communications Protocols




Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                   (Redacted)

                                      Page 32
                According to DHS Directive 4300A:

                         “Telnet shall not be used to connect to any DHS computer.
                         A connection protocol such as Secure Shell (SSH) that
                         employs secure authentication (two factor, encrypted, key
                         exchange, etc.) and is approved by the Component shall be
                         used instead.”

                Management Controls

                We did not find any reportable management control deficiencies
                for the USCG site at LAX.

Recommendations
                We recommend that the USCG CIO take the following actions for
                USCG activities at LAX:

                Recommendation #19: Store back-up tapes in an off-site facility.

                Recommendation #20: Implement the password policy
                established by DHS Directive 4300A.

                Recommendation #21: Develop a process for implementing
                identified patches in a timely fashion.

                Recommendation #22: Eliminate or disable unnecessary ports
                from the server and router.

                Recommendation #23: Use a connection protocol that employs
                secure authentication.

Management Comments and OIG Analysis
                In the comments, USCG concurred with recommendations 19
                through 23. These recommendations will be considered resolved
                but open pending verification of all planned actions.




 Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                    (Redacted)

                                       Page 33
Appendix A
Purpose, Scope, and Methodology


           Purpose, Scope, and Methodology

                             This review is part of a program to evaluate, on an ongoing basis,
                             the implementation of DHS technical and information security
                             policies and procedures at DHS sites. The objective of this
                             program is to determine the extent to which critical DHS sites
                             comply with the department’s technical and information security
                             policies and procedures, according to DHS Directive 4300A and its
                             companion document, the DHS 4300A Handbook.

                             We coordinated the implementation of this technical security
                             evaluation program with the DHS Chief Information Security
                             Officer (CISO). We mutually agreed to the wording for the Rules
                             of Behavior for the technical testing. 9 Our entrance and exit
                             conferences were held with DHS components officials.

                             Technical evaluations were performed only after the DHS CISO
                             and DHS components official agreed to our negotiated Rules of
                             Behavior. These technical evaluations included:

                                      •	 Security scans of the servers, routers, and switches
                                         using various software packages, and
                                      •	 Scans to determine whether wireless devices were
                                         being used by DHS components.

                             We reviewed applicable DHS and components’ policies and
                             procedures, and components’ responses to our site surveys and
                             technical questionnaires. For example, we used components’
                             responses to identify occupied space, server rooms, and
                             telecommunications closets. Our onsite review included a physical
                             review of components’ space and interviews with components
                             staff.

                             Our technical review included technical scans of security controls
                             as well as scans for DHS wireless devices operating at LAX.
                             Additionally, we reviewed guidance provided by DHS to the
                             components in the areas of patch management, operation systems,
                             and wireless security.

                             We provided components with briefings concerning the results of
                             fieldwork and the information summarized in this report. We
                             conducted this review between September 2007 and March 2008.

9
    The Rules of Behavior established the boundaries and schedules for the technical evaluations.

           Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                                  (Redacted)

                                                     Page 34
Appendix A
Purpose, Scope, and Methodology

                        We performed our work according to the Quality Standards for
                        Inspection of the President’s Council on Integrity and Efficiency
                        and pursuant to the Inspector General Act of 1978, as amended.

                        We appreciate the efforts by DHS management and staff to provide
                        the information and access necessary to accomplish this review.
                        Our points of contact for this report are Frank Deffer, Assistant
                        Inspector General for Information Technology, (202) 254-4100,
                        and Roger Dressler, Director for Information Systems and
                        Architectures, (202) 254-5441. Major OIG contributors to the
                        review are identified in Appendix C.




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 35
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 36
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 37
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 38
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 39
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 40
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 41
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 42
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 43
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 44
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 45
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 46
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 47
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 48
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport –
                                             (Redacted)

                                                Page 49
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 50
Appendix B
Management’s Response to the Draft Report




      Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                             (Redacted)

                                                Page 51
Appendix C
Major Contributors to This Report



                       Roger Dressler, Director, Department of Homeland Security,
                       Information Technology Audits

                       Kevin Burke, Audit Manager, Department of Homeland Security,
                       Information Technology Audits

                       Domingo Alvarez, Senior Auditor, Department of Homeland
                       Security, Information Technology Audits

                       Ernie Bender, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Karen Nelson, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Matthew Worner, Program Analyst, Department of Homeland
                       Security, Information Technology Audits

                       Syrita Morgan, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Richard Saunders, Director, Department of Homeland Security,
                       Advanced Technology Division

                       Steve Matthews, Manager, Department of Homeland Security,
                       Advanced Technology Division

                       Jeffrey Devine, Technical Evaluator, Department of Homeland
                       Security, Advanced Technology Division

                       Sukhonthip Rueangvivatanakij, Technical Evaluator, Department
                       of Homeland Security, Advanced Technology Division

                       Shannon Frenyea, Referencer




         Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                            (Redacted)

                                               Page 52
Appendix D
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Under Secretary, Management
                       Assistant Secretary, Office of Policy
                       Assistant Secretary, Office of Public Affairs
                       Assistant Secretary, Office of Legislative Affairs
                       Chief Information Officer (CIO), DHS
                       Chief Privacy Officer
                       Deputy CIO, DHS
                       Chief Information Security Officer, DHS
                       Chief Information Security Officer, CBP
                       Chief Information Security Officer, ICE
                       Chief Information Security Officer, TSA
                       Chief Information Security Officer, USCG
                       Information Systems Security Manager, CBP
                       Information Systems Security Manager, ICE
                       Information Systems Security Manager, TSA
                       Information Systems Security Manager, USCG
                       DHS Audit Liaison
                       CBP Audit Liaison
                       ICE Audit Liaison
                       TSA Audit Liaison
                       USCG Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




         Technical Security Evaluation of DHS Activities at Los Angeles International Airport
                                            (Redacted)

                                               Page 53
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
